No. 20-) Vi 7
In The

Supreme Court of tjje fHmtetr ibtatetf
Gerald Dix,
Petitioner,
v.
Edelman Financial Services, LLC, et al.,
Respondents.

On Petition For A Writ Of Certiorari
To The United States Court of Appeals
For the Seventh Circuit
PETITION FOR A WRIT OF CERTIORARI

Gerald Dix, pro se
P. O. Box 2043
Bridgeview, IL 60455
(630) 452-0134

FILED
MAR 0 2 2021

RECEIVED
MAR - 8 2021

QUESTIONS PRESENTED
Whether the Fourth Amendment protects a person
and property from seizure by police using force and
threats to arrest to effect an eviction in contravention
of clearly establish law
Whether the circuit court exercising jurisdiction
over state law claims which had been relinquished by
the district court and refiled in state court is an
unconstitutional intrusion on the core state power to
define the terms of state law claims litigated in state
court proceedings.
Whether the First Amendment provides a person
the right to say offensive, derisive or annoying words
to any person who is on the speaker’s private property
and who is free to leave at any time.
Whether the Federal Rule of Civil Procedure 9(b)
requires a plaintiff to have personal knowledge of
relevant facts within the defendants’ exclusive control
and where without doubt, the defendant knows of the
fraud and persons responsible.

ii

PARTIES TO THE PROCEEDING
The petitioner is Gerald Dix
Respondents are Edelman Financial Services, LLC;
Theresa Miller; Village of Lisle; Officer Rob Sommer,
individually and in his official capacity as a Village of
Lisle Police Officer; Officer Sean McKay, individually
and in his official capacity as a Village of Lisle Police
Officer; MJ Suburban, Inc. d/b/a RE/MAX Suburban;
Officer Vetaliy Lord, individually and in his official
capacity as City of Wheaton Police Officer; Officer
Dean Anders, individually and in his official capacity
as a Village of Lisle Police Officer; Officer John Doe
#3, individually and in his official capacity as a Village
of Lisle Police Officer; Cheryl L. Shurtz; Jane Doe #1
(Karen Morse); Jane Doe #2 (Meme Coryell); Fire
Towing Inc.; City of Wheaton.
Amicus Curiae is Daniel Scott Harawa, Director of
the Appellate Clinic at Washington University in St.
Louis School of Law
LIST OF ALL PROCEEDINGS
U.S. Court of Appeals for the Seventh Circuit, No.
18-2970, Gerald Dix v. Edelman Financial Services,
LLC, et al., judgment entered on October 19, 2020.
Rehearing denied on November 17, 2020.
U.S. District Court for the Northern District of
Illinois, Eastern Division, No. l:17-cv-06561, Gerald
Dix v. Edelman Financial Services, LLC, et al., final
judgment entered on August 14, 2018.
Eighteenth Judicial Circuit of Illinois, No.
2019L000900, Gerald Dix v. Theresa Miller et al.,
proceedings stayed pending this petition.

iii

TABLE OF CONTENTS
Page
Questions Presented...............................................

1

Table of Authorities.................... ...........................

v

Introduction.............................................................

1

Opinions Below........................................................

2

Jurisdiction........... ...................................................

3

Constitutional Provisions Involved.....................

3

Statement..................................................................

3

Reasons for Granting the Writ.............................

10

A. The Seventh Circuit has not adopted
this Court’s precedent in Soldal..............
B. Defendants abused the judicial process
to prevent Petitioner from recovering
seized property.............................................
C. The First Amendment must protect
offensive but accepted speech on private
property.........................................................
D. The Seventh Circuit did not have
jurisdiction over Petitioner’s wrongful
eviction claim..............................................
E. The pleading requirements set forth in
Rule 9(b) are not clearly settled among
the circuit courts..........................................
Conclusion.....................................................................

10

21

24

26

28
33

Appendix A - Opinion of the United States Court
of Appeals for the Seventh Circuit
(October 19, 2020)............................................. la

iv

TABLE OF CONTENTS
(continued)
Page
Appendix B - Order of the court of appeals
denying rehearing
(November 17, 2020).................................

25a

Appendix C - Order of the court of appeals
denying equal time in oral arguments
(September 15, 2020)....... ........................

27a

Appendix D - Opinion of the United States
District Court for Northern Illinois
(August 14, 2018)...... ................................

29a

Appendix E — Opinion of the United States
District Court for Northern Illinois
(February 28, 2018)...................................

53a

Appendix F - Theresa Miller’s email to Gerald
Dix (July 24,2017)....................................

65a

Appendix G - Theresa Miller’s email to Gerald
Dix (September 29, 2014)..........................

66a

TABLE OF AUTHORITIES
Cases

Page(s)

Baumgartner v. Montavon,
276 Ill. App. 498 (Ill. App. Ct. 1934).......

15

Caniglia v. Strom,
953 F.3d 112 (1st Cir. 2020).....................

26

Cook v. University Plaza,
100 Ill. App. 3d 752, 427 N.E.2d 405
(Ill. App. Ct. 1981)......................................

12

Craighead v. E.F. Hutton Co., Inc.,
899 F.2d 485 (6th Cir. 1990)....................

31

DiLeo v. Ernst Young,

901 F.2d 624 (7th Cir. 1990)................

30

Dix v. Edelman Financial Services, LLC
978 F.3d 507 (7th Cir. 2020)....................

2

Doty v. Burdick
83 Ill. 473 (1876).........................................

1

First Illini Bk. v. Wittek Industries,
261 Ill. App. 3d 969, 634 N.E.2d 762
(Ill. App. Ct. 1994).....................................

21

Frisby v. Schultz,
487 U.S. 474 (1988)....................................

25

George v. Urban Settlement Servs.,
833 F.3d 1242 (10th Cir. 2016)................

31

Grimm v. Arnold,
253 Ill. App. 3d 404, 624 N.E.2d 432
(Ill. App. Ct. 1993)......................................

15

Higgins v. Penobscot County Sheriff's Dept,
446 F.3d 11 (1st Cir. 2006)......................

19

vi

TABLE OF AUTHORITIES
(continued)
Page(s)
Hoskins v. Poelstra,
320 F.3d 761 (7th Cir. 2003).......................

29

Howerton v. Gabica,
708 F.2d 380 (9th Cir. 1983).......................

20

Howlett v. Hack,
794 F.3d 721 (7th Cir. 2015).......................

27

Illinois Cent. R. Co. v. Michigan Cent. R. Co.,
18 Ill. App. 2d 462, 152 N.E.2d 627
(Ill. App. Ct. 1958).........................................

16

Jones v. Kilfether,
12 Ill. App. 2d 390, 139 N.E.2d 801
(Ill. App. Ct. 1956)..........................................

18

Klen v. City of Loveland,
661 F.3d 498 (10th Cir. 2011).....................

26

Kunz v. New York,
340 U.S. 290 (1951).......................................

25

Lee v. City of L.A.
250 F.3d 668 (9th Cir. 2001).......................

32

Levin v. Com. Energy, Inc.,
560 U.S. 413 (2010)...................... ................

27

Loubser v. Thacker,
440 F.3d 439 (7th Cir. 2006).......................

29

Luce v. Edelstein,
802 F.2d 49 (2d Cir. 1986)............................

32

Lunini v. Grayeb,
184 F. App’x 559 (7th Cir. 2006)............. ...

19

Lunini v. Grayeb

305 F.Supp.2d 893 (C.D.I11. 2004)...........

20

vii

TABLE OF AUTHORITIES
(continued)
Page(s)
Marvaso v. Sanchez,
971 F.3d 599 (6th 2020)......................................... 21
Millennium Park Joint Venture, LLC v. Houlihan,
17, 18
241 Ill. 2d 281, 948 N.E.2d 1 (Ill. 2010)..
Mine Workers u. Gibbs,
383 U S. 715 (1966)...................................

27

Monell v. Dep't of Social Servs.,
436 U.S. 658 (1978)...................................

6

Neubronner u. Milken,
6 F.3d 666 (9th Cir. 1993)........................

31

New England Data Services, Inc. v. Becher,
829 F.2d 286 (1st Cir. 1987).....................

30

People v. Evans,

163 Ill. App. 3d 561, 516 N.E.2d 817
(1987)............................................... 1, 10, 13
People v. White
512 N.E.2d 677 (Ill. 1987)........................

11

Rotella v. Wood
528 U.S. 549 (2000)...................................

2

Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574 (1999)...................................

26, 27

Soldal v. Cook County,
506 U.S. 56 (1992)....................................

passim

Soldal v. County of Cook,
923 F.2d 1241 (7th Cir. 1991).................

12

United States ex rel. Polukoff v. St. Mark's Hosp.,
895 F.3d 730 (10th Cir. 2018).............................

31

viii

TABLE OF AUTHORITIES
(continued)
Page(s)
United States v. Ivy,
165 F.3d 397, 403 (6th Cir. 1998)......................

22

U.S. v. Colleges,
655 F.3d 984 (9th Cir. 2011)...............................

32

U.S. v. Winslow,
962 F.2d 845 (9th Cir. 1992)..............................

23

White v. City of Markham,
310 F.3d 989 (7th Cir. 2002)...............................

16

Whitton v. City of Gladstone,
54 F.3d 1400, 1408 (8th Cir. 1995)....................

24

Zappa v. Gonzalez,
819 F.3d 1002, 1005 (7th Cir. 2016).................. 22
Constitutional and Statutory Authorities
U.S. Const., amend. I..

passim

U.S. Const., amend IV

passim

28 U.S.C. § 1254..........

3

28 U.S.C. § 1367..........

2

42 U.S.C. § 1983..........

1, 18, 20

Fed. R. Civ. P. 9..........

passim

Fed. R. Civ. P. 11........

9, 21, 22

Fed. R. Civ. P. 65........

9

720 ILCS 5/19-6..........

9

735 ILCS 5/9-101........

1

735 ILCS 5/19-101......

21

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner Gerald Dix, on his own behalf,
respectfully petitions this court for a writ of certiorari
to review the judgement of the United States Court of
Appeals for the Seventh Circuit
INTRODUCTION
By way of § 1983 claims, Petitioner alleged
violations of his Fourth Amendment rights resulting
from unlawful seizure of his person and property
during an eviction by police acting without judicial
authority. The Seventh Circuit issued the opinion
below in defiance of this Court’s superior authority
and ruling in Soldal v. Cook County, 506 U.S. 56
(1992) and the Illinois Forcible Entry and Detainer
Statute (FEDS) (735 ILCS 5/9-101 et seq.) - “a longestablished public policy that violence and even
bloodshed could result from individuals using force
and violence to regain possession even if the
possession is rightfully theirs.” People v. Evans, 516
N.E.2d 817, 819. (citing Doty v. Burdick (1876), 83 Ill.
473, 477). Additionally, the Petitioner alleged First
Amendment violations resulting from a police officer’s
threat to arrest him after he made a derisive comment
to a fraudster while standing on the last bastion of
privacy — the grounds of his own home.
Petitioner also made pendent state law claims
related to his unlawful eviction. The district court
dismissed those claims “sounding in fraud” against
Edelman Financial Services, LLC and its agents for
failure to satisfy Fed. R. Civ. P. 9(b)’s (“Rule 9(b)”)
heightened pleading standard. The Petitioner along
with most of the circuit courts contend that Rule 9(b)’s
requirements should be relaxed in cases such as this
where the defendants held exclusive control over the

2

deficient information. This Court tends to favor
relaxing Rule 9(b) standards when a plaintiff lacks
access to all facts necessary to detail a claim. See
Rotella v. Wood, 528 U.S. 549, 560 (2000)
On August 14, 2018, the district court dismissed
the Petitioner’s federal claims and relinquished
jurisdiction over his remaining state law claims
including his claim for wrongful eviction pursuant to
28 U.S.C. § 1367(c)(3). The Petitioner notified the
circuit court that he refiled his wrongful eviction claim
in the Eighteenth Judicial Circuit of Illinois but the
Seventh Circuit dismissed that claim as well
(App.lOa, 27a-28a).x
Review here would allow the Court to reaffirm
lower courts’ obligation to follow this Court’s
precedents, and provide much-needed guidance
regarding how to apply those precedents so as to
minimize wrongful evictions flowing from fraudulent
and unscrupulous business practices and to deter
egregious constitutional violations by state and
private actors.
OPINIONS BELOW
The opinion of the court of appeals is reported at
Dix v. Edelman Financial Services, LLC, 978 F.3d 507
(7th Cir. 2020) and is reprinted in the Appendix at
App.la-24a. The district court’s order granting
Edelman’s motion to dismiss is reported at 2018 WL
1115937 and reprinted at App.53a-64a. The district
court’s order dismissing all of the Petitioner’s federal

1 During a hearing in the Illinois civil action listed above,
the Defendants stated they will apply collateral estoppel
to bar the Petitioner’s wrongful eviction claim.

3

claims and relinquishing his state claims is reported
at 2018 WL 3922199 and reprinted at App.29a-52a.
JURISDICTION
The judgment of the court of appeals was entered
on October 19, 2020. A timely petition for rehearing
en banc was denied on November 17, 2020. This
petition was timely filed, consistent with the Supreme
Court’s March 19, 2020 Order within 150 days of that
judgment. This Court’s jurisdiction rests on 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
The First Amendment to the U.S. Constitution
provides:
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
The Fourth Amendment to the U.S. Constitution
provides:
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons
or things to be seized.
STATEMENT
For about six years, Gerald Dix provided Theresa
Miller with money, goods and services in exchange for

4

his tenancy in her single-family home in Lisle, Illinois.
(D.Ct.Dkt.23 Iff20-23,46; Dkt.25 p.3,12-14). Dix was
required to perform his services on Miller’s beck and
call and he had the option to continue his tenancy with
Miller if she were to move to Arizona where she
maintained a pharmacist license. (D.Ct.Dkt.23 f f 24,
25). The landlord-tenant agreement was oral and
there had never been any mention that the agreement
was a license. {Id. f 42). Furthermore, by agreement,
Miller was not permitted to sever their landlordtenant relationship at will — a condition stipulated by
Miller in hopes that Dix would follow her to Arizona
where he had no job prospects, no friends or family or
other resources. {Id. f 25).
On July 24, 2017, Miller sent an email to Dix asking
him if he would move his living quarters from the
basement to the third floor of her split-level home so
that she could relet the bottom floor to a female renter
(App.65a). Dix absolutely refused and consequently
Miller could not relet his space to anyone else - a clear
indication that Dix had a better right of possession to
his living quarters than Miller which was resolved
amicably between the two without meddling and
unconstitutional interference by the Lisle police.
Miller was being forced to sell her house for
financial reasons related to Edelman’s fiduciary
misconduct and she began “staging” her home on or
about August 19, 2017 as part of a seller’s agreement
with REMAX Suburban as the hsting agent.
(D.Ct.Dkt.23 ff34,56,57). On the night of August 23,
2017, Theresa Miller summoned the Lisle police to
evict Dix from his home where he was a lawful tenant
in good standing. {Id. ff 105-106). The Lisle police
duly informed Miller that they could not legally evict
Dix and advised her that if she wanted him evicted,

5

she would have to obtain an order for eviction from a
DuPage County judge through a Forcible Detainer
and Entry Action. (Id. 1107). All was seemingly
resolved that night after the police left without
incident and Dix returned to his home. (Id. 1110).
However, the next morning, Miller again summoned
the Lisle police to illegally evict Dix. This time,
Sergeant Dempsey, Rob Sommer, Sean McKay
responded but did not leave soon thereafter without
incident as they should have like their colleagues did
the night before. (Id. 11113,118).
In seeking Dix’s eviction, Miller was attempting to
breach the rental agreement on behalf of Cheryl
Shurtz who did not want Dix living in Miller’s house
as a condition for listing it with REMAX and wanted
Dix removed within seven days as well as the house
staged within that time for listing photos — an
undisputed impossible task given Miller’s clutter and
lack of worthy movers. (Id. 1156, 84-93). Prior to
listing her home with REMAX, Miller requested that
Dix move with her into her mother’s two flat in
exchange for repairing that building which he was
already doing while he still lived in the Lisle home.
(D.Ct.Dkt. 105-2; Dkt. 25p.l4).
While Sergeant Dempsey, acting like a maniac,
caused the situation to become deranged by screaming
at Dix and interfering with his attempt to protect his
personal property from loss, Sommer and McKay
colluded with Miller to illegally evict Dix despite the
fact that there was no domestic violence or any other
apparent reason for doing so. (D.Ct.Dkt.23 H115118). Sommer and McKay colluded with Miller
because they were involved in a scheme by some
members of the Lisle police department to participate
in duties which they ought not do, to make it appear

6

that the police department was understaffed and
underbudgeted in an attempt to enlarge its funding
and personnel which was known to the Chief of Police,
David Anderson at the time. (Id. KK154-157).2
Sommer and McKay directed Miller and Meme
Coryell to remove Dix’s personal property from his
home while Dix was to stay on the driveway (Id.
1(122). Although Miller was supposed to bring Dix’s
property onto the driveway, she closed the main
exterior door and blinds so that he could not see into
the home through the storm door (Id. 1(126). Dix
objected to this arrangement since it gave Miller the
opportunity to steal or destroy some of his property.
(Id. K 124). When Dix attempted to retreat into his own
home to oversee the move, Sommer physically
restrained him and prevented him from doing so. (Id.
H125; D.Ct.Dkt.25 p.17).
While evicting Dix, Coryell was carelessly handling
his property and after she moved his loose property
without first packing and securing it, Dix called her
stupid. (D.Ct.Dkt.23 128). In response, Sommer
informed Dix that if he referred to anyone else as
stupid, he would be arrested even though Sommer
acknowledged Coryell was not a “professional mover”
as she had been fraudulently presented. (Id. If 1(129,
130). Because Miller and Coryell were physically
incapable of removing all of Dix’s property, he was
permitted into the kitchen and basement to retrieve
his property. (Id. 1(145). When Dix attempted to
retrieve his property from the second and third floors,
2 Dix relied on Anderson’s policy of permitting police
officers under his supervision to willfully violate
constitutional rights as the basis for his Monell claim
against Lisle. See Monell v. Dep't of Social Serus., 436 U.S.
658, 690-91 (1978).

7

Sommer held a dog gate shut to prevent him from
accessing rooms on those floors - rooms which still
contained his personal property. (Id. 1Hf 146-147). Dix
informed Sommer that he would seek possession in a
lawsuit if they could not resolve his right to claim his
personal property right then and there. (Id. 148).
Sommer stated that Dix was not permitted onto the
second and third floors to reclaim his property and
told Dix to file his lawsuit. (Id. If 149).
While Dix was being forced to leave his home in the
moving van, Sommer took his housekeys and told Dix
not to return to Miller’s house for any reason other
than the sole purpose of retrieving his compact pickup
truck which remained in the driveway. (Id. If ^f 152153). Thereafter, Miller, the Lisle and Wheaton police
concocted schemes to intimidate and harass Dix to
prevent him from recovering the remainder of his
property including his truck and prevent him from
recovering his losses through the courts.
The preceding events were precipitated by Miller’s
job loss as a clinical pharmacist. (Id. If 29). Edelman’s
agent and “financial advisor,” Karen Morse never
properly instructed Miller on how to manage her
money and thereafter Miller met with Morse to
withdraw enough money to cover her expenses during
her temporary period of unemployment. Id. Morse
refused to give Miller any of her own financial assets
and gave Miller bad financial advice to sell her home,
move into her mother’s two-flat in the ghetto and steal
from Dix. (Id. Tf1f39,40,45) Had Morse given Miller
about $4,000 from her poorly performing portfolio, a
relatively small sum of money compared to Miller’s
earning potential and investments with Edelman,
none of the preceding events would have happened.
(D,Ct.Dkt.l26 p.5).

8

Because of Morse’s conspiracy to defraud, Dix had
to hide his wallet after Miller used his credit card to
make several unauthorized purchases. (D.Ct.Dkt.23
Tf51). Miller began opening and concealing Dix’s mail
to steal his paychecks. (Id. If48). Miller also began
going through Dix’s personal, business and financial
records and as a result, Dix lost several documents
preventing him from conducting his business affairs
including billing clients. (Id. 145). Because of Morse’s
advice to Miller and the unlawful eviction, Dix had to
repair a dilapidated and uninhabitable duplex
without compensation. (Id. 154).
Morse was in business to retain as much money as
possible in her clients’ portfolios even if it was
performing poorly and caused her clients to sell their
homes at a loss as was the case with Miller. (Id. 144).
When Miller was forced to quickly sell her home and
having difficulty staging it, Morse presented
Edelman’s apparent-agent, Coryell as a “professional
mover” and Morse did so knowing it not to be true. (Id.
1240). Because of this fraud, Dix was required to
perform Coryell’s work instead of conducting his own
business affairs causing him to lose income. (Id. 192).
Before filing his complaint, Dix did not know the
name of Miller’s financial advisor and he attempted to
discover it by telephoning Edelman several times.
(D.Ct.Dkt.79-1 14). When Dix spoke with the Lisle
police, Sergeant Dempsey made a false allegation that
Edelman had to evacuate its headquarters because
Dix had made a “bomb threat.” (Id. 18). Dempsey then
told Dix not to call Edelman and was trying to
intimidate him and prevent him from pursuing his
legal obligation to conduct a reasonable discovery
before filing his complaint. (Id. 19). Dempsey then
telephoned Vetaliy Lord and informed him that the

9

Lisle police had just illegally evicted Dix and deprived
him of his property and encouraged Lord to call Dix
and make a false claim that Dix threatened Shurtz.
(Id. If 11). Thereafter, to protect the wrongdoings of his
friends in the Lisle police department, Lord called Dix
and falsely claimed that Dix threatened Shurtz and
that Lord was going to give the same false testimony
to a DuPage County judge and that Lord would get a
warrant for Dix’s arrest. (D.Ct.Dkt.23 Tf^fl75-182)
Lord knew that Dix did not threaten Shurtz but used
the threat to arrest Dix to prevent him from
conducting discovery regarding Shurtz’s role in the
wrongful eviction prior to filling his lawsuit —
discovery which Dix knew he was obligated to conduct
pursuant to Rule 11(b). Id.
Miller and the Lisle police began destroying and
disposing of Dix’s personal property seized during his
wrongful eviction to permanently deprive him of it. To
prevent further loss of his personal property, Dix filed
an emergency motion for a Temporary Restraining
Order (“TRO”) on September 27, 2017 pursuant to
Rule 65(b). (D.Ct.Dkt.8). Dix hand dehvered his
motion to Miller’s house in Lisle, placing it on the
stoop as he was obligated and sworn to do.
(D.Ct.Dkt.23 ^H[203-204). When he delivered his
motion, Dix never entered Miller’s house and was on
the grounds for no more than fifteen seconds. (Id.
Tf205). The next day, Officer Dean Anders called Dix
from the Lisle Police Department’s dispatch room and
informed him that when Miller came home, she found
the TRO motion on her kitchen table and claimed that
Dix had placed it there. (Id. TH[206-207). Anders
falsely claimed that Dix committed criminal home
invasion in violation of 720 ILCS 5/19-6 and informed
Dix that he would convince the State Attorney to
prosecute him. (Id. ^[^[212-213). Even though Anders

10

knew that Miller’s house was for sale at the time and
that a realtor’s lockbox was attached to the fence
permitting any licensed realtor including Shurtz to
enter Miller’s house at any time and place the TRO
motion inside the home, Anders unequivocally
claimed that Dix did it. (Id. ^210-211).
Anders knew that Dix never entered the home the
previous day but made false claims to intimidate him
into dismissing his complaint and for the purpose of
aiding and abetting Miller’s attempt to extort money
from Dix. (Id. f 214).
REASONS FOR GRANTING THE WRIT
A. The Seventh Circuit has not adopted this
Court’s precedent in Soltlal
According to Illinois public policy, no person has the
right to take possession, by force, of premises occupied
or possessed by another, even though such person may
be justly entitled to such possession. Evans at 564.
The FEDS provides the complete remedy at law for
settling such disputes and persons seeking possession
must use this remedy rather than force. Id.
Consequently, the FEDS gives a home’s occupants
possessory rights even if temporarily while a trial
judge determines which disputing party has the better
right of possession.
Dix had possessory rights to Miller’s house when he
was wrongfully evicted because of (1) an oral landlordtenant agreement with Miller; (2) pursuant to the
FEDS, a temporary right of possession even if Miller
no longer wanted him living in her house and even if
Dix would later be found to be a “licensee” by a court
with competent jurisdiction; and (3) this Court’s
precedent in Soldal.

11

The Seventh Circuit misrepresented the crux of
Dix’s complaint by making false statements and
fallacious inferences. At the time of the illegal
eviction, it was already well-settled by all parties
including Miller and the Lisle police that Dix was a
lawful tenant who had a right of possession to Miller’s
house. The Seventh Circuit was clearly confused
about Illinois tenancy law when it erroneously opined
that Dix was a licensee and not a tenant.
Furthermore, the Seventh Circuit did not have
jurisdiction over the Dix’s wrongful eviction claim and
its unsupported conclusion that he was a licensee
violates Dix’s fourth amendment due process rights,
is meritless and inapposite to the undisputed facts
requiring some discussion.
Because Dix was removed from his home by force
and deprived of his property without judicial
authority, his Fourth Amendment rights were
violated. Miller’s house was Dix’s home for Fourth
Amendment purposes since (1) he lived there for
nearly six years; (2) he had a regular and continuous
presence and regularly slept there; (3) he had
exclusive use of the lower-level; (4) he stored his
clothes and possessions there; (5) he received mail
there; (6) he contributed to the upkeep of the
household. See People v. White, 512 N.E.2d 677, 683
(Ill. 1987). Dix had possessory rights regardless of the
existence of any lease as long as he began his
occupancy of Miller’s house peaceably. Subsequently,
Dix was entitled to a trial or at least a judicial hearing
before he could be removed from Miller’s house
against his will.
The Seventh Circuit erroneously inferred that Dix
lacked the essential elements of a lease (App.9a) and
in doing so, ignored the undisputed facts and

12

disrespectfully, even facts presented by amicus. Dix
had the “ultimate hallmark of a lease” - an exclusive
right to dedicated rooms and a right to refuse and did
refuse Miller’s request to relet his space to another
renter. See Cook v. University Plaza, 100 Ill. App. 3d
752, 427 N.E.2d 405, 407 (Ill. App. Ct. 1981) (A
leasehold requires that the lessee’s possession be more
than merely coextensive with the lessor; it must be
exclusive against the world and the lessor even
though there may be a reservation of a right to
possession by the landlord for purposes not
inconsistent with the privileges granted to the
tenant.)
The Seventh Circuit claimed that this Court’s
opinion in Soldal is not applicable because those
“evicted persons were not mere licensees (let alone
trespassers)” (App.19a) — labels which the circuit
court erroneously placed on Dix. This is another
misrepresentation by the Seventh Circuit which
seems to be oblivious to its own opinions. According
to Soldal v. County of Cook, 923 F.2d 1241, 1245 (7th
Cir. 1991) the morning after his trailer was removed,
“[Edward Soldal] was seen entering the
park, and while he was in the friend's
trailer a deputy sheriff (who had not
been present at the eviction the previous
day) came and arrested Soldal because
"you're not supposed to be here." He was
kept in jail for several hours, charged
with criminal trespass.” [emphasis
added].
Dix was never arrested for criminal trespass
although the Lisle police tried using fabricated
evidence and it was not until he read the circuit

13

court’s opinion in October of 2020 did Dix learn that
when he awoke on the morning of August 24, 2017, he
did so as an “alleged” trespasser. The Seventh
Circuit’s contention that Dix was a trespasser who
had no possessory rights to his home but Edward
Soldal was not a trespasser who did have possessory
rights to his trailer-home is outrageous and spurious
and warrants reversal by this Court. It is obvious that
the Seventh Circuit has no intention to capitulate to
this Court’s superior authority and has invented
specious and contemptuous reasons for defying this
Court’s precedent which cannot be allowed. The
seizure of Dix’s person and property is even more
egregious than Soldal since the Lisle police officers
were more involved with Dix’s illegal eviction than the
deputy sheriffs in Soldal where at least some attempt
was made to comply with the FEDS under a claim that
payment for the lot was in arrears. Soldal at 58
The Seventh Circuit deliberately avoided the
controlling state law cited by this Court in Soldal and
instead
cited impertinent
state
law with
distinguishable controlling facts. In People v. Evans,
516 N.E.2d 817 (Ill. App. Ct. 1987), Joyce Evans was
permitted to take possession of a bedroom in the home
of Maxine West without signing a lease or paying rent
and was forcibly removed and treated as a trespasser
by the local police after she apparently refused to sign
a lease. Evans at 818. According to Illinois law, only a
trial judge in a forcible entry and detainer action can
determine which party has the better right of
possession, not a police officer or assistant State’s
Attorney. Id at 819. Furthermore, the Illinois criminal
trespass to real property statute provides that the
statute shall not apply to anyone living on the
premises by a lease or other agreement. Id at 819-20.

14

In this instant case, Dix had established a more
convincing right of tenancy than Joyce Evans in that
case, yet the Seventh Circuit incorrectly opined that
the Lisle police still had a right to treat him as a
trespasser.
This Court has held that the Fourth “Amendment
protects the people from unreasonable searches and
seizures of‘their persons, houses, papers, and effects’”
and that the Amendment’s protection applies in the
civil context as well. Soldal at 62, 67. This Court held
that “the right against unreasonable seizures would
be no less transgressed if the seizure of the house was
undertaken to collect evidence, verify compliance with
a housing regulation, effect an eviction by the police,
or on a whim, for no reason at all.” Id at 69. Sommer
seized Dix multiple times; first preventing him from
retreating into his own home and later preventing
him from entering the second and third floors and,
finally, along with McKay and Anders prevented Dix
from returning to his abode, all for the purpose of
seizing his property and giving it to Miller in violation
of the Fourth Amendment.
The Seventh Circuit erroneously opined that Dix
had no possessory rights by relying on Miller’s
wrongdoings as landlord where she unlawfully
interfered with Dix’s rights under Morse’s
instructions to steal from him in lieu of giving Miller
her own money (App.lOa). Since Dix had to lock his
documents in his truck and Miller was opening and
withholding his mail, (a wrongdoing which even the
Lisle police advised Miller to refrain) the circuit court
erroneously opined that Dix was not a tenant. To the
contrary, Miller’s breach of the implied covenant of
quiet enjoyment did not nullify their landlord-tenant
agreement, but only supports Dix’s legal claims

15

against Morse and Miller who were attempting to
defraud him out of money causing injury. “The tenant
has the right to the possession of the property without
interference by the landlord with her right to quiet
enjoyment.” Grimm v. Arnold, 253 Ill. App. 3d 404,
624 N.E.2d 432, 436 (Ill. App. Ct. 1993).
Nothing in Illinois tenancy law even suggests that
interference by a landlord with possessory rights of a
tenant converts a lease agreement to a license and it
is an absurdity for the circuit court to even suggest so.
Prior to Morse’s plan to steal from Dix, he actually
received his mail, left his wallet and financial
documents laying around all over Miller’s house, all
without interference by Miller. (D.Ct.Dkt.23 Ilf4950). It is well-settled, however, that such interference
typically permits a tenant to recover damages from
the landlord. “It is the law that damages sustained by
a tenant by reason of a breach of the covenants of the
lease on the part of the landlord may be set up by way
of recoupment in an action for rent, under the lease.”
Baumgartner v. Montavon, 276 Ill. App. 498, 505 (Ill.
App. Ct. 1934). Under the Seventh Circuit’s
argument, a landlord would merely have to interfere
with a tenant’s rights by breaching covenants as a
pathway to a forcible and extrajudicial eviction
against a now vulnerable “licensee.”
The Seventh Circuit also ignored the fact that
under the terms of the lease, Dix had possessory
rights which were superior to Miller’s rights for
common areas in the house. Dix had a right to dictate
that Miller’s clutter not pose an unsanitary and
unsafe condition in the kitchen and that the illegal
and dangerous conveyance of natural gas and
electricity not be used. (D.Ct.Dkt.23 fTf64,75,82).
Furthermore, even if Dix was a trespasser or a

16

licensee, he was entitled to due process of law wherein
his possessory rights were to be determined at trial by
a Forcible Entry and Detainer Action initiated by
Miller prior to him being forcibly removed from his
home and not three years after the fact by the circuit
court with no jurisdiction over the matter. “The
forcible entry and detainer act does not confine the
remedy it provides to a landlord-tenant relationship.
It provides a remedy whenever peaceable entry is
made and possession unlawfully withheld.” Illinois
Cent. R. Co. u. Michigan Cent. R. Co., 18 Ill. App. 2d
462, 483 ail- App. Ct. 1958)
The Seventh Circuit relies on its own opinion in
White v. City of Markham, 310 F.3d 989 (7th Cir.
2002) as “ground support” for its opinions issued in
defiance to this Court’s sound legal arguments in
Soldal under a theory of qualified immunity (App. 13a16a). In White, when those police arrived, they
discovered broken lamps, a shattered fish tank and
other personal belongings scattered on the floor. White
at 991-92. It was questionable whether the house in
White was habitable given its condition at the time
including a missing exterior wall. Id at 998. Those
officers also witnessed Brian White and the
homeowner arguing. Id at 992. This instant case is
inapposite to the White scenario. There was no
quarreling between Dix and Miller when the Lisle
police arrived and they only observed Dix literally
minding his own business. Furthermore, there was no
visible broken, shattered or otherwise damaged
property although some of the Dix’s property was
damaged during the hasty and unplanned eviction. It
is undisputed that Sergeant Dempsey was the only
one disturbing the peace and that Dix was relatively
calm despite the situation and was able to amicably
negotiate favorable agreements with Miller for

17

reimbursement of the moving van (the only time Dix
spoke to Miller while the Lisle police were present)
and a bailment agreement with Lisle while he left to
rent the moving van. However, both agreements were
later breached similar to the way they breached the
landlord-tenant relationship. (D.Ct.Dkt.23 ^H|139,
141).
In its attempt to falsely claim that the agreement
between Dix and Miller was a “license agreement”, the
circuit court relies on a contract found in Millennium
Park Joint Venture, LLC v. Houlihan, 948 N.E.2d 1
(Ill. 2010). (App.9a). The Seventh Circuit deliberately
avoids the fact that Millennium is a clearly
distinguishable commercial agreement for public
space with one of many vendors to operate on a
twenty-four acre tourist attraction which is ordinarily
regulated by police and not a person’s relationship to
his private home where intrusions by over-reaching
police are likely to violate constitutional protections.
In Millennium, a vendor brought a declaratory
judgment action seeking an untaxable license as
opposed to a taxable lease. Millennium at 7. In
deciding that agreement between the those parties
was a license, the Millennium court relied on the fact
that the Park District had extensive control over all
aspects of that plaintiffs business including the
location of mobile concessions and a right to permit
other vendors to operate on the premise. Millennium
at 19, 20. To the contrary, Miller had no right to
control Dix’s personal and business affairs including
the location of his desk within her house where he
conducted most of his private business affairs. Dix
also exercised his right to refuse Miller’s proposal of
admitting another renter.

18

In citing Millennium, the circuit court infers that
the essential elements for a lease contract are missing
■ but this is not the case since (1) Dix had full access to
all structures and the grounds of the Lisle property
deeded to Milller with exclusive use of the basement
(2) the terms were oral and extensive and not
reviewed by the courts but it was undisputed that Dix
performed those terms “to the satisfaction of Miller”
(3) Dix gave Miller goods, services and cash in
exchange for his tenancy but the covenant for repair
and maintenance of the leased property ultimately
varied the “cash value” for rent (4) the time and
manner of payment was to be made on Miller’s beck
and call. See Millennium at 19
The Seventh Circuit looks to Jones v. Kilfether, 139
N.E.2d 801 (Ill. App. 1956) to falsely claim that Dix
had no right of possession (App.9a-10a). The Seventh
Circuit completely ignores the fact in Jones at 802,
that decision came from a forcible entry and detainer
proceeding which is absent here and which gives rise
to Dix’s due process claim. It was decided in Jones at
803-4, that plaintiff, an estranged husband, had no
tenancy agreement with his wife and absent anything
to establish the relation of landlord-tenant at trial
between the divorcing couple, gave that plaintiffs wife
exclusive right of possession to the subject property.
This instant case in no way resembles Jones. First, the
occupancy of the apparent-tenant, Jenny Kilfether,
was protected by the Illinois FEDS even though she
paid no rent. Jones at 802. Had Mr. Jones summoned
the police to forcibly remove her from the family home
under his theory that her trespassing was interfering
with his marital affairs, there would have been some
semblance to this case even absent a § 1983 right. If
anything, Jones supports Dix’s wrongful eviction
claim since it shows that by using the courts instead

19

of maniacal and unscrupulous police disturbing the
peace, the right of possession by Jenny Kilfether, the
occupant whose removal was sought was
uninterrupted and resolved without incident.
The Seventh Circuit made other spurious legal
arguments for denying Dix’s constitutional claims,
but these are nothing more than a bane attempt to
undermine this Court’s precedent. The circuit court
relying on Higgins v. Penobscot County Sheriff's Dept,
446 F.3d 11 (1st Cir. 2006) makes the erroneous claim
that Sommer and McKay were not put on notice that
they were violating the Constitution when they
illegally evicted Dix (App.l8a-20a). In Higgins at 14,
that plaintiffs occupancy of the subject property was
disputed by other members of his family and the
officers in that case believed the property to be long
unoccupied and Higgins had been operating a vehicle
with out-of-state plates. This case is distinguishable
since it is undisputed that Dix resided in Miller’s
house given his presence late at night and early the
next morning in addition to the fact that he received
mail there and commuted to work in a nearby town.
Furthermore, the police never observed any
quarrelling between Dix and Miller and it is
undisputed that the only person screaming like a
maniac was Sergeant Dempsey. Dix was standing
outside of his vehicle sorting through his documents
when the Lisle police officers arrived and Miller was
nowhere around.
The Seventh Circuit cites Lunini u. Grayeb, 184 F.
App’x 559 (7th Cir. 2006), attempting to mischaracterize the events in this instant case as a
“domestic disturbance” (App.l5a-17a) There was no
complaint by Miller or Dix, that one injured the other
and neither of them had any physical injuries nor did

20

any Lisle police officer see a need to ask Dix or Miller
if either of them needed an ambulance. According to
Lunini v. Grayeb 305 F.Supp.2d 893 (C.D.I11. 2004),
Joseph Lunini and Charles Grayeb lived in a single­
family home in Peoria, Illinois. The Peoria police
observed an injured and bloodied Lunini who claimed
that Grayeb caused his injuries which Grayeb denied.
Lunini at 901-03. A police officer observed a cut on the
inside of Lunini’s lip and blood on his hand and asked
Lunini if he needed an ambulance. Lunini at 900.
Because of the physical injuries in that case, that
court found that the police were not unreasonable to
order Lunini to leave and not come back unless
accompanied by the police; thus they did not violate
Lunini’s fourth amendment right which was later
affirmed by the circuit court. Lunini at 907-08.
In this case, there was no sign of domestic violence;
no broken household items; no bloody victims; and no
yelling and screaming in the presence of police except
for Sergeant Dempsey’s screams. The Lisle police
were only present to remove Dix forcibly and
unlawfully from his home at the behest of Miller who
was fulfilling her agreement with Shurtz. The circuit
court cites the fact that Miller twice called the Lisle
police to illegally evict Dix and infers that because of
his refusal to leave, his forceful removal by the Lisle
police was justified. However, the ninth circuit has
held that repeated requests for police to effect an
eviction only serves as an indication that a landlord is
a joint actor in a § 1983 action and that police were
present for reasons other than performing a “peace­
keeping” function. See Howerton v. Gabica, 708 F.2d
380, 385 (9th Cir. 1983).
The Petitioner was evicted by Miller, Shurtz and
the Lisle police purely for financial reasons in

21

violation of his Fourth Amendment rights and this
Court should exercise its supervisory authority over
an obstinate circuit court and reverse the opinion
below.
B. Defendants abused the judicial process to
prevent Petitioner from recovering seized
property.
Before filing his complaint and presenting his
motion for replevin, Dix was performing his legal
obligations pursuant to Rule 11(b) and the Illinois
Replevin Statute (735 ILCS 5/19-101). Dix had to
demand that the defendants return his property
which he did several times before he filed his motion
for replevin. See First Elini Bk. v. Wittek Industries,
261 Ill. App. 3d 969 634 N.E.2d 762, 763 (Ill. App. Ct.
1994) (“Until demand has been made and refused, the
defendant's possession of the property is not
considered wrongful.”)
While investigating Shurtz’s role in the illegal
eviction, Lord and Shurtz herself engaged in a
conspiracy to deprive Dix of his constitutional rights
to his property by threatening him with arrest using
false and manufactured evidence. Although Dix was
not arrested by the Wheaton police, the Sixth Circuit
has held that an unlawful conspiracy to fabricate
evidence caused constitutional injury even if plaintiff
was never arrested or tried, but like this instant case,
was used to support fourth amendment violations. See
Marvaso v. Sanchez, 971 F.3d 599 (6th 2020)
(Defendants engaged in an unlawful conspiracy to
fabricate evidence to support a homicide by arson
investigation against a restaurateur who was never
arrested but was subjected to an unconstitutional
search and seizure as a result of false evidence.)

22

Dix was seized by Lord’s threat to arrest,
preventing him from fully conducting his Rule 11(b)
discovery by investigating REMAX and Shurtz’s role
in his illegal eviction. Furthermore, an unknown
woman from REMAX later harassed Dix by telephone
and the Wheaton police department refused to accept
Dix’s complaint but they still did not permit him to
investigate Shurtz and REMAX by telephone.
(D.Ct.Dkt.23 ^11183-186). The Seventh Circuit
declared Dix’s complaint as frivolous (another false
and unsupported conclusionary claim) and made
sanctions against him (App.23a) despite the fact that
he was fully complying with Rule 11 the best he could
given the threats by the Wheaton and Lisle police. The
Seventh Circuit made sanctions against Dix despite
the fact it previously found “that an officer's threat to
arrest someone, conveyed over the telephone, is
enough to raise constitutional concerns.” Zappa v.
Gonzalez, 819 F.3d 1002, 1005 (7th Cir. 2016). Also,
the Sixth Circuit appears to assert that a police officer
making a threat to arrest is not entitled to qualified
immunity. See United States v. Ivy, 165 F.3d 397, 403
(6th Cir. 1998) (Police Sergeant’s threat to arrest and
take a child “constituted an objectively improper
police action...significantly intensifying the coercive
tenor of the request for consent.”) Thus, there are
merits to Dix’s claims against Shurtz and Lord given
the foregoing precedents and sanctions were
improper.
Since Dix was never legally evicted, he still had a
right to use Miller’s house for any purpose that he saw
fit (although he never entered Miller’s house after his
eviction), including using it to store his personal
property and his motor vehicle as part of a bailment
agreement until he was able to safely recover his
property through replevin. Anders used the

23

undisputed fact that Dix was on Miller’s property as
an opportunity to accuse him of criminal home
invasion by falsely contending that Dix entered
Miller’s house. There was no evidence other than
“planted evidence” and there simply was no criminal
home invasion — only a fabrication by Anders to
intimidate and harass Dix to prevent him from
pursuing his claims. “Law enforcement conduct
becomes constitutionally unacceptable when "the
police completely fabricate the crime solely to secure
the defendant's conviction.” U.S. v. Winslow, 962 F.2d
845, 849 (9th Cir. 1992).
Furthermore, in retaliation for Dix filing his federal
complaint, a Lisle police officer who Dix reasonably
believes to be McKay approached Miller and
threatened to prosecute her if she refused to file a
false criminal complaint against Dix which they
eventually used to have Dix violently arrested in
district court. (D.Ct.Dkt 23 TH[188-191). In a tele­
phone conversation, Miller gave Dix the option to
avoid prosecution by saying that she would not give
her false testimony at trial in exchange for Dix giving
her all of his money and voluntarily dismissing all of
his claims (Id.
192-194).3
3 There was never any evidence to support a criminal
complaint against Dix at any time. To maliciously
prosecute Dix, DuPage County State Attorney, Robert
Berlin fabricated and falsified a certified copy of a
disposition from the Cook County Clerk for case number
10CR013840 which fraudulently claimed that Dix was
convicted of aggravated DUI in 2010 and spent 207 days in
jail in order to impeach Dix at trial. According to the real
disposition from Cook County, the person named in case
number 10CR013840 is GERARDO DIAZ not Gerald Dix
as Robert Berlin’s certified copy falsely claimed.

24

Thus, the only sanctionable conduct was committed
by the Defendants and sanctions against Dix should
be vacated.
C. The First Amendment must protect
offensive but accepted speech on private
property.
Miller frequently used vulgar language about
others in her own home and permitted Dix to do the
same. Miller often used the n-word (n*gger) and the
word,
b*tch
in communications with
Dix
(D.Ct.Dkt.126 p.7;App.66a). Applying his own prudish
standards of speech, Sommer personally objected to
Dix’s words and unlawfully restricted his
fundamental right with a threat to arrest. “With rare
exceptions, content discrimination in regulations of
the speech of private citizens on private property. . .is
presumptively impermissible, and this presumption is
a very strong one.” Whitton v. City of Gladstone, 54
F.3d 1400, 1408 (8th Cir. 1995). Furthermore, the
circuit court’s finding that Sommer did not violate
Dix’s First Amendment right because he was not
entitled to be on Miller’s property is inaccurate; Dix
was permitted on Miller’s property for the purpose of
removing his personal property which Miller didn’t
want.4
Other than misrepresenting the record, the
Seventh Circuit does little to support its affirmation
of the district court’s dismissal of the Petitioner’s First
Amendment free speech claim. The circuit court
makes outright false statements that Dix was hurling
4 If Dix had created a fracas and volatile dispute as the
Seventh Circuit fraudulently inferred, he should have been
told not to come back until he “settled down” and only then
accompanied by the Lisle police.
_____
____

25

insults at Miller in the presence of Lisle police and
there is nothing in the record to support this false
contention (App.l4a). The circuit court relying on
Frisby v. Schultz, 487 U.S. 474, 485 (1988) infers that
Dix calling Coryell stupid was unwelcome speech in
Miller’s house (App.20a*n8). However, two days prior,
Miller expressed her disgust with Coryell’s ineptitude
since she moved so slow and Miller had to frequently
interrupt Dix while he was working at his desk so that
he would move relatively light boxes that Coryell
would not move. Although abiding by Shurtz’s
demand that the house be staged within seven days
was futile, Miller continued to employ Coryell’s
services since she had been endorsed by Morse who
controlled Miller’s financial assets.
Consequently, the circuit court’s reliance on Frisby
is misplaced since Coryell was not a captive audience
who could not avoid Dix’s criticism even if it could be
deemed offensive speech as she was free to leave at
any time and discontinue her fraud. See Kunz u. New
York, 340 U.S. 290, 298 (1951) (A meeting on private
property is made up of an audience that has
volunteered to listen.) Dix was on the grounds of his
own home, the place where he had woke up just hours
earlier and where the Lisle police had already
acknowledge his right of possession and he was only
communicating a sentiment shared by the homeowner
but only objectionable to a meddling police officer and
thus Frisby provides no protection for Sommer. See
Frisby at 488 (Ordinance may not apply in such
circumstances where resident uses his home as a
place of business or to picketers present at a
particular home by invitation of the resident.)
Dix only called Coryell stupid while he was being
evicted but the circuit court used this single word to

26

protect Sommer and McKay with qualified immunity
by ridiculously suggesting that Dix and Miller would
“duke it out” had it not been for the police presence
(App.l5a).5 Dix was justified in making his comment
to Coryell since someone with common sense and most
certainly a professional mover would have repackaged
his appliance before placing it on the asphalt
driveway. The tenth circuit has found that calling
someone a “boob” or an “idiot”, terms synonymous
with stupid, are relatively mild and that although
they may be offensive were not inherently likely to
cause a violent reaction and were not fighting words
devoid of First Amendment protection See Klen u. City
of Loveland, 661 F.3d 498, 510-11 (10th Cir. 2011). For
all the foregoing reasons, Dix calling Coryell stupid
was not unwelcome speech but a rather ordinary way
for Dix or Miller to express themselves in their own
home.
D. The Seventh Circuit did not have
jurisdiction over Petitioner’s wrongful
eviction claim
Dix duly notified the Seventh Circuit that it did not
have jurisdiction over his wrongful eviction claim but,
nonetheless, it exercised jurisdiction with a clearly
erroneous decision designed to interfere with Dix’s
constitutional protection. This Court has held that
“Personal jurisdiction...is an essential element of
district court jurisdiction, without which the court is
powerless to proceed to an adjudication.” Ruhrgas AG
5 This Court is currently considering whether a
“community caretaking exception” permits seizure of a
firearm from a home (Caniglia v. Strom, 953 F.3d 112 (1st
Cir. 2020)). A grant here would serve as a guide to this
exception in cases involving forcible and unlawful evictions
by police.

27

v. Marathon Oil Co., 526 U.S. 574, 575 (1999). In this
instant case, the district court divested the circuit
court of personal jurisdiction over Dix’s wrongful
eviction claim, making it powerless to adjudicate the
matter. Out of deference, the circuit court should have
permitted the state court to decide the merits of the
wrongful eviction claim since “[cooperation and
comity, not competition and conflict, are essential to
the federal design.” Ruhrgas at 576. See also Levin v.
Com. Energy, Inc., 560 U.S. 413, 421 (2010) (Comity
considerations preclude the exercise of lower federalcourt adjudicatory authority over controversy, given
that an adequate state-court forum is available to
hear and decide state-law claims.)
Even under the Seventh Circuit’s own standard,
Dix should have been permitted to pursue his
wrongful eviction claim in state court without
interference from the federal courts since ordinarily
after state law claims have been relinquished a
“[plaintiff] will be free to seek to pursue them in state
court” Howlett v. Hack, 794 F.3d 721, 728-729 (7th
Cir. 2015).
Furthermore, the circuit court’s usurpation of state
court proceedings eradicates Illinois’ dignitary
interests in resolving possessory rights peacefully and
without possible bloodshed. By erroneously deciding
the merits of Dix’s wrongful eviction claim, the circuit
court was overreaching. Common practice dictates
that “[f]ederal courts should not be overeager to hold
on to the determination of issues that might be more
appropriately left to settlement in state court
litigation” Mine Workers v. Gibbs, 383 U.S. 715, 727
n.15 (1966). “This Court has consistently recognized
the right of States to deal with violence and threats of
violence appearing in labor disputes,” Gibbs at 729.

28

Illinois developed the FEDS as a remedial measure to
resolve disputes over possession of real property
without bloodshed and violence by forcing the parties
to resolve their disputes in state court. However, the
circuit court decision nullifies the state’s measures,
leaving a path to “might makes right” to possession
with civil remedies, if any, occurring after a show of
force with possible bloodshed. Bloodshed which the
state courts will have to contend while the federal
courts reject and lash out at every wrongfully evicted
individual who walks through its doors as the Seventh
Circuit has clearly done here.
E. The pleading requirements set forth in
Rule 9(b) are not clearly settled among
the circuit courts.
The district court erroneously opined that Dix’s
claim against Morse was sparse, conclusory and
inconsistent to support a plausible claim for
conspiracy to defraud (App.58a). Dix pled a simple
and straight-forward conspiracy to defraud between
Miller and Morse. Morse denied Miller access to short­
term cash and presented a convoluted plan to Miller
that was not in Miller’s best interests and which had
dire financial consequences for all parties involved
except the attorneys who actually did pretty well.
Morse convinced Miller to move to the ghetto and
make Dix responsible for financing Miller while she
was unemployed. Morse and Miller had conversations
about Dix with Morse offering some useless career
advice to Dix through Miller but, of course, the
conspiracy part was never conveyed to him. The
conspiracy was that Miller and Morse decided that
Dix was going to finance Miller “by hook or by crook”
while she was unemployed. That is, if Dix didn’t give
her his money outright, Miller was to steal from Dix

29

so that Morse did not have to release any funds from
Miller’s poorly performing portfolio. While the
conspiracy plan itself was simple, its execution was
rash and convoluted enough that Dix recognized that
he was being “hustled” and took reasonable
precautions to prevent financial loss.
The district court should not have applied Rule
9(b)’s standard to Dix’s claim against Edelman and
Morse which was for conspiracy to defraud rather
than plain fraud which the Seventh Circuit had
previously held that Rule 9(b)’s particularity standard
is not applicable to a conspiracy to defraud claim.
“[Conspiracy is not something that Rule 9(b) of the
Federal Rules of Civil Procedure requires be proved
with particularity, and so a plain and short statement
will do.” Loubser v. Thacker, 440 F.3d 439, 442 (7th
Cir. 2006). (Citing Hoskins v. Poelstra, 320 F.3d 761,
(7th Cir. 2003)) “Rule 9(b) has a short list of matters
(such as fraud) that must be pleaded with
particularity; conspiracy is not among them. It is
enough in pleading a conspiracy merely to indicate
parties, general purpose and approximate date, so
that the defendant has notice of what he is charged
with.” Hoskins at 764. Nonetheless, the Seventh
Circuit did not reverse the district court’s dismissal of
his conspiracy to defraud claim against Edelman and
its agents.
The district court opined that since the Petitioner
had still not known the name of Miller’s financial
advisor and its apparent agent, Me me Coryell at the
time he amended his complaint, he failed to meet the
requirements set forth in Rule 9(b) (App.55a, 57a59a). Specifically, he failed to identify the “who” in the
oft incanted “who, what, when, where, and how: the

30

first paragraph of any newspaper story.” DiLeo v.
Ernst Young, 901 F.2d 624, 627 (7th Cir. 1990).
Despite his attempts and at great risk to himself,
the Petitioner had not been able to identify Miller’s
financial advisor although he identified her as such
and he knew she was an agent of Edelmen.
Consequently, Dix contends that he met the
requirements set in DiLeo and noted the fact that the
first paragraph of any “newspaper story” does not
necessarily identify the parties involved by their legal
name. Many initial news stories often omit the
the
identity of burglars or accident victims
information most sought. That information is often
kept confidential by the police until they see fit to
release it which is similar to this instant case.
Regardless, here, the Seventh Circuit adopted the
practice where Rule 9(b)’s stringent standards
required that the Plaintiffs amended complaint
include information within the Defendants’ exclusive
control.
The First Circuit held that when specific
information “is likely in the exclusive control of the
defendant, the court should make a second
determination as to whether the claim as presented
warrants the allowance of discovery and if so,
thereafter provide an opportunity to amend the
defective complaint.” New England Data Services, Inc.
v. Becher, 829 F.2d 286, 290 (1st Cir. 1987). Despite
Dix’s inevitable discovery of the true identities of
Morse and Coryell, he was never permitted to amend
his complaint a second time by the district court.
The Sixth Circuit has held that a plaintiff can base
his allegation on “information and belief...where the
relevant facts lie exclusively within knowledge and
control of the opposing party” as long as the plaintiff

31

pled a “a particular statement of facts upon which his
belief is based” Craighead v. E.F. Hutton Co., Inc., 899
F.2d 485, 489 (6th Cir. 1990).
The Ninth Circuit has held that “the general rule
that allegations of fraud based on information and
belief do not satisfy Rule 9(b) may be relaxed with
respect to matters within the opposing party's
knowledge. In such situations, plaintiffs can not be
expected to have personal knowledge of the relevant
facts.” Neubronner v. Milken, 6 F.3d 666, 672 (9th Cir.
1993). The tenth circuit has a similar policy wherein
it “excuse [s] deficiencies that result from the
plaintiffs inability to obtain information within the
defendant’s exclusive control” and where the
employer, no doubt knows which employee is
responsible for the fraud. United States ex rel.
Polukoff v. St. Mark's Hosp., 895 F.3d 730, 745 (10th
Cir. 2018).
The Tenth Circuit also held that “in determining
whether a plaintiff has satisfied Rule 9(b), courts may
consider whether any pleading deficiencies resulted
from the plaintiffs inability to obtain information in
the defendant's exclusive control.” George v. Urban
Settlement Servs., 833 F.3d 1242, 1255 (10th Cir.
2016). Dix was only required to make allegations that
sufficiently apprised Edelman of its alleged role in the
overall scheme to defraud him and of its involvement
in the conspiracy with Miller which he has clearly
done. See George at 1257.
Edelman knew the identity of Miller’s financial
advisor and because of the harassment and
intimidation by the Lisle police, Dix was prevented
from conducting discovery expeditiously to obtain her
identity by the time he filed his amended complaint.
While this case was still fingering in the district court,

32

Dix should have been permitted leave to amend his
complaint a second time once he learned of Morse’s
identity in order to remedy any deficiencies under
Rule 9(b); the district court’s dismissal of his claims
against Edelman without granting leave to amend
was an abuse of discretion. See Luce v. Edelstein, 802
F.2d 49, 57 (2d Cir. 1986).
Finally, the Seventh Circuit makes personal
attacks on Dix’s good character with false claims that
he disputes and even a false claim that former TSA
Director, Melvin Caraway disputes (App.21a-24a).
This Court should disregard the circuit court’s
slanderous claims. “[W]e may not, on the basis of
evidence outside of the Complaint, take judicial notice
of facts favorable to Defendants that could reasonably
be disputed.” U.S. v. Colleges, 655 F.3d 984, 999 (9th
Cir. 2011) (citing Lee v. City ofL.A., 250 F.3d 668, 68990 (9th Cir. 2001)).
The Seventh Circuit has long held personal
animosity against the Petitioner, Gerald Dix, for
several reasons that he need not discuss at this time.
The Defendants in this case agreed to litigate the
claims presented and so they incurred their legal costs
willingly while the Petitioner was harmed. Dix was
not surprised that the lower courts chose to omit and
misrepresent facts which permitted their public scorn
of him, however, the Seventh Circuit made Daniel
Scott Harawa participate in the briefing knowing its
decision would be a debacle. Mr. Harawa is an
associate professor of law at a school with an annual
tuition of $60,900 and he should have devoted his time
to his. customers - law students at Washington
University in St. Louis. Instead, Mr. Harawa had to
involve himself in an appeal which was decided in
direct conflict with this Court’s precedent in Soldal.

33

Because a legal scholar was exploited, this Court
should review the opinions below.
CONCLUSION
The petition should be granted.

Respectfully submitted.
Gerald Dix
(630) 452-0134
gdix3@hotmail.com

February 2021

i

2

